Capital Case
Case No. 19-1106

In the Supreme Court of the United States

TOMMY SHARP, Interim Warden,
Oklahoma State Penitentiary,
Petitioner,
v.
RODERICK L. SMITH,
Respondent.
_________________________________________
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Tenth Circuit
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
RESPONDENT’S BRIEF IN OPPOSITION

Respondent, Mr. Smith, respectfully requests leave of this Court to file the attached
Respondent’s Brief in Opposition to Petitioner’s Petition for Writ of Certiorari without
payment of costs and to proceed in forma pauperis pursuant to Rule 39 of the Rules of the
Supreme Court of the United States and 18 U.S.C. § 3006A(d)(7). In support thereof,
Respondent states as follows:
Roderick L. Smith is in the custody of the State of Oklahoma, Oklahoma Department
of Corrections, Oklahoma State Penitentiary, incarcerated under a conviction of first-degree
murder for which he has been sentenced to death.

Mr. Smith is indigent and has been represented by court-appointed counsel throughout
the proceedings against him. On June 16, 2014, the United States District Court for the
Western District of Oklahoma, Case No. CIV-14-579-R (Doc. 6), appointed the Federal
Public Defender’s Office to represent Mr. Smith in federal habeas corpus proceedings. On
August 31, 2017, the Tenth Circuit Court of Appeals granted counsel’s Motion to Continue
CJA Appointment on Appeal, Case No. 17-6184, and appointed the Office of the Federal
Public Defender for the Western District of Oklahoma to represent Mr. Roderick L. Smith
pursuant to18 U.S.C. §§ 3006A(c) and 3599(a)(2). See Order filed Aug. 31, 2017. This
filing is in compliance with Sup. Ct. R. 39 and is preceded and attached to the front of each
copy of Respondent’s Brief in Opposition.
Respectfully submitted,

s/ Emma V. Rolls
EMMA V. ROLLS, OBA # 18820 *
THOMAS D. HIRD, OBA # 13580
Assistant Federal Public Defenders
Office of the Federal Public Defender
Western District of Oklahoma
Capital Habeas Unit
215 Dean A. McGee Ave., Suite 707
Oklahoma City, Oklahoma 73102
(405) 609-5975 - telephone
(405) 609-5976 - facsimile
emma_rolls@fd.org
tom_hird@fd.org
COUNSEL FOR RESPONDENT, RODERICK L. SMITH
Dated this 26th day of May, 2020

* Counsel of Record

